<html>
<title> - THE EVERGLADES NATIONAL PARK</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                      THE EVERGLADES NATIONAL PARK

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                                   on

    CONCERNING THE MICCOSUKEE TRIBE'S ONGOING NEGOTIATIONS WITH THE 
      NATIONAL PARK SERVICE REGARDING THE SPECIAL USE PERMIT AREA

                               __________

                   SEPTEMBER 25, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-65

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                      U.S. GOVERNMENT PRINTING OFFICE
46-735 CC                     WASHINGTON : 1998




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 25, 1997..................................     1

Statements of Members:
    Diaz-Balart, Hon. Lincoln, a Representative in Congress from 
      the State of Florida.......................................     5
        Prepared statement of....................................    34
    Faleomavaega, Hon. Eni F. H., a Delegate to Congress from 
      American Samoa.............................................     4
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Hastings, Hon. Alcee L., a Representative in Congress from 
      the State of Florida, prepared statement of................    34

Statements of witnesses:
    Cohen, Edward B., Deputy Solicitor, Department of the 
      Interior...................................................     2
        Prepared statement of....................................    28
    Cypress, Hon. Billy, Chairman, The Miccosukee Tribe of 
      Indians of Florida.........................................     4
        Prepared statement of....................................    29
    Lehtinen, Dexter, Attorney, Vargas and Reiner................     6
        Prepared statement of....................................    31


   HEARING ON: THE EVERGLADES PARK CONCERNING THE MICCOSUKEE TRIBE'S 
   ONGOING NEGOTIATIONS WITH THE NATIONAL PARK SERVICE REGARDING THE 
                        SPECIAL USE PERMIT AREA

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (chairman of the Subcommittee) presiding.
    Mr. Hansen. [presiding] The Committee will come to order.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Subcommittee on National Parks and Public 
Lands convenes its oversight hearing to consider ongoing issues 
between the Miccosukee tribe of Indians in the Everglades 
National Park. The Miccosukee tribe once occupied a reservation 
of approximately a 100,000 acres of land within what is now 
Everglades National Park. When Congress created the park, the 
tribe was moved north to lands they did not historically 
occupy. However, since 1934 and the creation of the park, the 
Miccosukee tribe has occupied the most northern 500 feet of the 
park along a five-mile stretch of the Tamiami trail.
    The tribe occupies this land under a special use permit 
issued by the National Park Service. Unfortunately, the growth 
needs of the tribe and the mission of the Park Service have 
seemed to clash in recent years. We will hear testimony today 
to explore the problems that the tribe faces and will hear the 
concerns of the administration.
    Although legislation has been introduced to basically put 
the special use permit in law, it is my opinion that this may 
not be the best policy. I am concerned that the Department is 
managing the Miccosukee Tribe through the Park Service. This is 
not an appropriate role for the Park Service and this is an 
issue in other places across the country. Yet, the Park Service 
does have the mandate to protect the resources of the park. It 
is my hope that the current negotiations between the two 
parties will end in a resolution that benefits all sides.
    I look forward to the testimony and hope to have some open 
dialog to get to the crux of the problem and find a solution. 
Now, we only have one panel today. And the panel is Mr. Edward 
B. Cohen, Deputy Solicitor, Department of the Interior. He'll 
be accompanied by Mr. Dick Ring, Superintendent of the 
Everglades National Park.
    Also, we have the Honorable Billy Cypress, Chairman of the 
Miccosukee Tribe of Indians of Florida. Mr. Cypress, if you'd 
come up. And we have Dexter Lehtinen--I hope I'm not crucifying 
that--who will also be with us today.
    Gentlemen, we appreciate you being here. Let me just ask 
this question: How much time do you need?

 STATEMENT OF EDWARD B. COHEN, DEPUTY SOLICITOR, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Cohen. Five to 10 minutes max.
    Mr. Hansen. Five to ten. We have a rule in this House of 5 
minutes, but I can see no reason that we wouldn't bend that a 
little bit if you just have a burning in your bosom to talk a 
little longer than that. I'll tell you what. We'll give you 
five and if you go over, don't feel bad. If you go over ten, 
however, we'll feel bad.
    Mr. Cohen. I won't go over ten, you can be sure.
    Mr. Hansen. All right. Well, Mr. Cohen, we'll start with 
you, sir. The floor is yours.
    Mr. Cohen. Mr. Chairman, thank you for inviting us to 
testify. This is actually a very timely point at which to 
evaluate this relationship because I think that there have been 
significant developments. I come to you this morning with the 
hope that we are going to do exactly what you asked, which is 
to find a resolution to the tensions that have existed between 
the Park Service and the Tribe over the last several years. Let 
me begin simply by putting this issue in context, if I may.
    Mr. Hansen. Talk loud so that we can all hear you.
    Mr. Cohen. This is a map of South Florida. This is the 
park. This is Tamiami Trial, the northernmost border of the 
park area is right here, This 333 acres is occupied by the 
Tribe. There are four structures here through which the Army 
Corps of Engineers filters the bulk of the water that flows 
through the Shark Slew. Two of those structures are immediately 
adjacent to the Special Use Permit Area.
    So my point for describing this is to put in context the 
strategic significance of this parcel of land on which the 
Tribe lives for the restoration program that we're undertaking.
    Having said that, let me just briefly also put in context 
what has happened over the last 30 years. When the park was 
established, it was done so to protect the unique and diverse 
biosystem of the Everglades. The legislation also indicated 
that the Park Service must accommodate the interests of the 
Tribe that currently exists in the area to the extent that 
their presence does not conflict with the purposes of the park.
    In order to accommodate that, in 1962 the park and the 
Tribe entered into the first Special Use permit. That permit 
allows for the use and occupancy by the Tribe in the permit 
area consistent with the Act of May 30, 1934, which is the Act 
which established the Everglades.
    The permit was intended to provide for the administrative 
and educations facilities of the Tribe and to provide places 
for the Miccosukee Indians to live, make, and sell handicrafts. 
It is a 50-year permit which expires in January of 2014. There 
have been a series of permits after that which amended the 
original permit, but in essence, the 50-year permit is what we 
now have.
    Since 1962, the Tribe has constructed nearly 200 separate 
structures on this 333 acres of land. This includes houses, 
tribal, commercial, and administrative buildings such as 
schools, a clinic, gymnasium, and the like. The pace of 
development and construction, however, is significant to the 
relationship between the Tribe and the park. From 1963 to 1990, 
the Tribe built about 50 houses. Since 1990, 80 houses have 
been built, as well as a gymnasium, an enhanced water tower, 
and an expanded government center. There are currently pending 
over 100 additional fill permits for either new construction or 
expansion of existing construction. Of the 333 acres in the 
Special Use Permit Area, somewhere between 70 and 90 are 
wetlands that have been filled by the Tribe for development.
    This enhanced pace of construction coincides, we believe, 
with the improved economic fortunes of the Tribe--and that's 
good--these fortunes stemming, primarily, from a Bingo 
operation down the road a piece. But it is this enhanced pace 
that has caused the park to pay greater attention to what is 
being done in the Special Use Permit Area.
    I think that the low point in the relationship between the 
Tribe and the park was in the 1994-1996 period when there were 
lawsuits and nasty rhetoric. But in the past year, I think 
we've made a lot of progress. We assisted the Tribe in seeking 
a fair settlement with the Florida DOT. That settlement was the 
subject of legislation recently reported by this Committee.
    We were able to agree on the construction of 30 new homes 
that the Tribe requested. And based on that foundation and 
these efforts, we have now begun a process to define a new 
relationship between the Tribe and the park which would 
acknowledge the Tribe's sovereignty, and provide a right to 
live within the park in perpetuity and at the same time protect 
the resources of the park. I look forward to discussing the 
parameters of what we're talking about with the Tribe as we 
proceed.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cohen may be found at end of 
hearing.]
    Mr. Hansen. Well, thank you.
    Let me point out that if you see those two white lights at 
the back, that means that there's a vote on. And I've got a few 
minutes to run over and vote. I apologize, but that's the way 
it works around here. And so I intend to come right back and 
I'll just run back and forth and if you'll all be patient for 
just a few moments, I'd appreciate. We'll stand in recess for a 
moment.
    [Recess.]
    Mr. Hansen. The committee will come to order. We actually 
had two votes and so I apologize for keeping you waiting.
    We've now been joined by the ranking member of the 
Committee, Mr. Faleomavaega of the great area--where are you 
from, anyway?--American Samoa, and he went to BYU and that's a 
constant struggle between Mr. Faleomavaega and myself. We all 
went to the University of Utah. So we'll turn the time to you.

 STATEMENT OF THE HONORABLE ENI F. H. FALEOMAVAEGA, A DELEGATE 
                TO CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I understand that there is 
litigation underway between the Miccosukee Tribe and the 
National Park Service regarding the construction of certain 
additional homes within the Special Use Permit Area that the 
Miccosukee can occupy. I would prefer that we not get into 
matters that are presently under litigation. That would be more 
appropriate once the case is resolved. However, I understand 
that our witnesses are prepared to speak on the broader, more 
general question of the overall Special Use Permit, and not 
focus solely on the pending litigation.
    I am encouraged that the Tribe and the Park Service have 
kept a dialog going and they are neighbors and I hope and 
expect will remain as such for the foreseeable future. I 
appreciate the presence of our witnesses today and I look 
forward to their testimony. Mr. Chairman, I do apologize for my 
being a little late this morning. There's nothing like being 
jet lagged after being in the air for some 16 hours and I don't 
know whether I'm going or coming. But I appreciate the patience 
of our friends coming in this morning to testify. I look 
forward to their testimonies.
    Mr. Hansen. My good friend here has a long way to go when 
he goes home, as you can well understand.
    We've already had Mr. Cohen, the Deputy Solicitor. He has 
given his opening remarks.
    Mr. Faleomavaega. Will he remain here while we hear from 
the other witnesses, Mr. Chairman? Or Mr. Cohen?
    Mr. Cohen. I'm sorry. I didn't hear the question.
    Mr. Faleomavaega. You're not leaving right after your 
testimony?
    Mr. Cohen. Oh, no. I'm not going anywhere.
    Mr. Faleomavaega. Thank you.
    Mr. Hansen. Now we're honored to have with us Billy 
Cypress, Chairman of the Tribe. Mr. Cypress, we'll turn the 
time to you, sir. If you'd like to pull that mike over, we'd 
appreciate it.

STATEMENT OF HON. BILLY CYPRESS, CHAIRMAN, THE MICCOSUKEE TRIBE 
                     OF INDIANS OF FLORIDA

    Mr. Cypress. Thank you, Chairman Hansen and members. I'd 
like to say thank you for giving the time to at least come and 
testify before you. A hearing--what we're here for is pretty 
much self-governance, self-determination of how we make our 
living, where we live, and how our future with growth.
    Up to now, it's been pretty much two standards. one side 
can say, ``We don't do this; we don't want this,'' but you see 
plans; you see development; you see development before. And the 
gentleman that I would like at least to refer and answer 
quickly before I go on--that this matter is in court, but the 
Federal judge himself has said that, ``I hope it can be 
resolved here.'' He's been sitting on it for a long time, but 
he's referring to see if this happens here; maybe he can 
dismiss it.
    So it's almost like being in a merry-go-round. You can only 
hop from one horse to another. I'm hoping that this would 
resolve our problems, so that way the Federal judge can see and 
dismiss it. But he's been sitting on it for, like I say, going 
on quite a while. And his remarks was that, ``I hope these can 
be worked out.'' And he says that this is a problem of, would 
you say, Indian people in the United States in itself.
    And what we're looking at is this: the United States and 
Indian people have a clear understanding, and that through 
Congress, the intent and the enactment says that Indian people 
living there--it's the agencies that we have a problem with. 
That's reading, interpreting, and every person that could be a 
superintendent, any solicitor in the future could interpret 
different.
    So what we're here, and I'm hoping that being before this 
committee will look and, how would you say, clarify the 
enactment and because--and one point, that our Tribe was told 
that we really don't have any growth. Now, where do you start 
putting growth? Because the future of our children depends on 
our forefathers, such as myself here. So this is why that I 
hope the gentlemen will take a second look--because it's the 
Federal Court deferring to this committee here back to 
Congress. So, you know, with it--I, you know, am kind of 
honored that you have taken on a busy schedule and have one 
panel for us today.
    But the problem that we're having is that Tribe is expected 
to uphold the law while other people don't. And I'm referring 
to the park and its interpretation, and as I say this, we 
follow our traditional law and try to uphold the European law 
at the same time. This is why we established Indian court that 
has two judges--one to interpret what we call contemporary law, 
which is the European law, while traditional is looked on. So 
we have representation of an Indian judge and a contemporary 
judge. And this is the kind of thing that we work with.
    So, but, you know, to be told that we could not have 
growth, we could not follow our tradition and traditional law, 
and traditional--but under this Secretary of Interior accepting 
a 1962 Tribal Constitution, that's pretty much what we're 
saying. There is, I would say, a flagrant violation of Indian 
law, as well as congressional law, under the Secretary. This is 
why we're here before you today.
    Forgive me for being blunt, but I think that we've been 
through court; we've been everywhere else. So now we understand 
this is the proper place to come, because Congress is the one 
that made the language, and we want that, what we call, 
clarifying the enactment. So that way, it would be better for 
the park people and ourselves.
    Thank you.
    [The statement of Mr. Cypress may be found at end of 
hearing.]
    Mr. Hansen. Thank you. We appreciate your testimony.
    We've been joined by our colleague from Florida, Diaz-
Balart, and Lincoln, if you want to take a few minutes, we'll 
turn to you, sir.

  STATEMENT OF HON. LINCOLN DIAZ-BALART, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Diaz-Balart. Thank you. Thank you so much Mr. Chairman, 
distinguished members. I am here in support of bill H.R. 190 
introduced by Mr. Hastings of Florida, And would simply like 
the subcommittee to know of our support for this legislation in 
South Florida. It is our belief that it is an important piece 
of legislation in that it seeks to clarify what we believe are 
important rights of the Miccosukee Tribe and would ask the 
subcommittee, Mr. Chairman, for its consideration of this 
legislation. I wanted to come by and simply, on the record, put 
down my strong support for this legislation.
    Mr. Hansen. Well, thank you very much. We appreciate your 
presence. If you'd like to join us on the diaz, we know you're 
very busy, but whatever----
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman, for the 
offer. You know how the schedules are here. Thank you very 
much.
    Mr. Hansen. I understand.
    Mr. Lehtinen, I hope I'm not crucifying your last name.

   STATEMENT OF DEXTER LEHTINEN, ATTORNEY, VARGAS AND REINER

    Mr. Lehtinen. Lehtinen. Lehtinen is good. Actually Lehtinen 
is much closer to the true pronunciation, but we never use it.
    Mr. Hansen. Well, I will turn the time to you, sir.
    Mr. Lehtinen. Thank you, Mr. Chairman. I also want to thank 
Congressman Diaz-Balart and Congressman Hastings, the prime 
sponsor is in Afghanistan on some conference on security in 
Europe and he did submit a statement for the record that I 
believe you have. And also, Congressman Meek signed a statement 
as well and is a co-sponsor of the bill. So we really have a 
bipartisan support, Meek and Hastings on the Democratic side, 
and Diaz-Balart and Miller is on the Republican side. So we 
thank them.
    Let me just say briefly that when--1935 when the hundred 
thousand acre Monroe Indian Reservation was abolished, the 
Miccosukees were living throughout South Florida. The 
reservation was abolished in anticipation of creating 
Everglades National Park and legally we think this amounts to a 
taking. The Roosevelt administration visited the Miccosukees 
along the trail, those who were willing to speak with the 
government, and promised that they would not be removed--Harold 
Ickes, then-Secretary of the Interior. The floor discussion in 
Congress reflected this and the floor discussion's very 
important because the Congressional Record has Congressmen 
saying, ``by passing this bill, we are placing them in a home 
and in a position to live where they should live. We believe 
they should remain there. They will be permitted to remain 
relatively undisturbed in their country and in their homes.'' 
And that's from the Congressional Record explanation of the 
bill.
    Throughout the fifties, the Tribe sought an organizational 
system and a land-base within the park to protect their self-
government and were recognized under Reorganization Act in 
1962, but had existed, of course, for centuries, but took that 
form in 1962 and the United States allocated this 500-wide, 5-
mile strip along the north edge of the park where a road 
already existed, utilities already existed, and said in the 
permit that they could build in that area. The BIA 
representative was Reginald Miller and I think it's important 
to see what he says.
    He said that Interior and BIA, and these are quotes, 
``worked with the idea of finding a land-base in the park in 
order to build houses, have a school, a place for some medical 
attention, a community facility, business enterprises, and such 
things as a normal community might want,'' end quote. Miller 
went on to say, quote, ``this was identified as the Tamiami 
Indian Reservation.'' And I might say that's the way the park 
carried it on its own tourist maps until about 1990. He says it 
was the Tribe's traditional homeland and he says as the BIA 
representative that it was a permanent site.
    Now the BIA built a permanent administration center and the 
Tribe built, as Mr. Cohen has properly pointed out, what you 
see in Tab 1, schools, a hundred houses, a police station, a 
medical center, senior center, and so forth. And all of the 
time the Tribe has complied with environmental protection laws, 
like the Clean Water Act, section 404, dredge and fill permits. 
They've applied in their own name, and each time the court has 
found no environmental damage to the park or any adjoining 
landowner.
    But, nonetheless, tension in the 1990's developed when it 
became apparent that the Park Service position was that the 
presence of an Indian Tribe, and I think, as you said in your 
opening statement, Mr. Chairman, that this is an issue perhaps 
nationwide, and even with the way the park views its ownership 
and control of parks even vis-a-vis tourists and other non-
Indian users of the parks, but they came to view that the 
Tribe's mere presence was inconsistent with the park.
    So after 2 years of asking for approval under the permit to 
build some houses, which under the permit is supposed to be a 
60-day period, the park has 60 days to review plans, which we 
think is just a comment period, not an absolute veto, but 
they've turned it into an absolute veto. So after waiting for 2 
years, the Tribe went directly to the Corps of Engineers for 
the 404 dredge and fill permit, when the park said the Tribe 
does not have a sufficient landed interest to be an applicant 
for a dredge and fill. This was after decades of the Corps 
directly dealing with the Tribe.
    After some litigation, which we won't go into, the court 
took the position that the Tribe did have a sufficient landed 
interest, found no environmental damage to the park or anyone 
else, and issued the dredge and fill permit for the 65 houses, 
but the park still said no, using the permit as an absolute 
veto.
    So what the Tribe wants, really, is a reaffirmation of what 
it believes Congress intended. The key elements would be, 
first, the right to govern themselves as they see fit, that is, 
self-government as though that area were an Indian reservation.
    Secondly, the right to develop the area as the permit said, 
houses, other things in the 333 acres, as long as the 
activities have no harm to the outside environment, adjacent 
landowners, including no harm to the park. And that oversight 
of this would be by normal enforcement mechanisms--the Clean 
Water Act, the Corps of Engineers fining them for violations, 
the Attorney General can sue them for violations, but not 
special enforcement by the park or a veto by the park. And that 
these rights be in perpetuity. Actually, the rights in the 1917 
Monroe Reservation were in perpetuity, but in perpetuity in 
that law only meant 18 years, but we'd like ``in perpetuity'' 
again, anyway.
    The Miccosukee Tribe will guarantee and will accept these 
mandates in writing in law to adhere to strict anti-pollution 
mandates, to adhere to a provision of no harm to the Everglades 
restoration or the park. And for that matter, height 
limitations, no gaming, and no commercial aviation.
    I want to repeat, even with limited time, that they will 
accept in law that the Corps of Engineers shall not issue a 
permit unless it finds no harm to restoration, hydro-period, 
water quality, and so forth.
    Mr. Cohen is right that the enhanced pace of construction 
comes because of the Tribe's ability to now fund this 
construction. But none of this construction is outside of the 
permit area, none of this construction has ever been found to 
be harmful to the park, and while I appreciate their concerns 
about hydro-periods and restoration, we believe they simply 
have nothing to do with this. These houses are along a road, 
the white man or non-Indian built, since the 1962 permit, the 
Tribe's always agreed that flow ways and everything else will 
be maintained and we have the good fortune of using the park--
or the U.S. government's own water quality expert to testify 
that there is no water quality damage.
    So what I see, Mr. Chairman, is a government that allows 
this construction in Everglades National Park. It's in the Tab 
2, this is the park's own brochure, or the commercial 
concessionaire's brochure that points out within the park, down 
at the most sensitive area in the interchange between the 
Florida Bay and the land, which you took testimony on in 1993, 
this subcommittee did, in Key Largo, that's a park development. 
That's within the park. And we don't say that the 100-room 
hotel for tourists, the numerous cabins, the restaurant, the 
marina, and the park housing, and you'll in the tads and you'll 
see that employee housing is right on the sand, right 
overlooking the water, we don't say the employee housing 
violates the Park Act. But they actually have said that they're 
not sure they can allow the Tribe to build housing because the 
Park Organic Act that creates the Park Service requires the 
Park Service to preserve parks in their natural state, so that 
housing might be inconsistent. But I see that they say that at 
the same time they build what you see behind tab 2 within their 
own park, and perhaps appropriately build it.
    So interestingly enough, we see that the Tribe is asking 
for nothing more than we think they already have. After all, 
the 1934 Congressional Record said they'll be allowed to stay 
there undisturbed. The BIA representative said it was in 
perpetuity to build houses within the area. The Department of 
the Interior and the Federal courts have already declared it 
legally to be Indian country, as a legal proposition. If you 
commit a crime there, you get treated having committed a crime 
in Indian country.
    The Florida Department of Transportation, I might point 
out, and this isn't definitive, but that sign that the Florida 
Department puts on Tamiami Trail doesn't say ``Entering 
Miccosukee Permit Area''--they think it's an Indian 
reservation--``Entering Miccosukee Indian Reservation.'' 
Likewise, the park called it the Tamiami Indian Reservation 
until 1987 when they changed it to ``cultural area.'' And also 
the maps you'll see in tab 4, in conclusion, these are maps--
excuse me, tab 5, this is the Board of Regents official State 
of Florida map.
    Governor Chiles has the introduction to this saying this is 
a great document and the State of Florida map says Miccosukee 
Indian Reservation for the permit area, and the State of 
Florida discussion of Indians in its atlas says that this 333 
area is an Indian reservation. And the 1997 Gazetteer for 
Florida says this little strip is an Indian reservation.
    So what they seek, really, is just what most of us have 
been seeking: freedom from governmental interference, from 
bureaucrats telling them what's good for them; freedom to 
develop their own community as long as they don't harm their 
adjoining neighbors, as long as they have no environmental 
impact, as long as they don't hurt the park outside their 
boundaries; freedom to control their own lives with no harm to 
anybody else. In short, just freedom under equal law.
    Thank you, Mr. Chairman, and I and, of course, the other 
members are happy to answer any questions.
    [The statement of Mr. Lehtinen may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. We appreciate your 
testimony.
    The gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I'd like to 
dialog with Mr. Cohen in terms of what exactly are the concerns 
of the National Park Service. In my reading your statement, Mr. 
Cohen, I get the impression that the Miccosukee Tribe's 
inability to meet the standards appointed to what a national 
park should be. Is this--you mention something about a 
downstream effect of the development going on now with the 
Tribe. Can you elaborate a little further on that?
    Mr. Cohen. Sure. One could spend, actually, a fairly long 
time responding to that question. I'll try to be succinct. 
First of all, I'd point out that this development in Flamingo 
that Mr. Lehtinen noted was built in the late 1950's, early 
1960's and preceded NEPA. To the extent that there is 
construction going on now, it is to repair damage down by 
Hurricane Andrew and it is being done in a far more 
environmentally sensitive manner than what was done when it was 
originally built. For example, the water tower was replaced 
with a lower tower. It's at tree level, rather than high above 
it. So I'm not sure what relevance the Flamingo site has. It 
certainly is not something the Park Service would build today.
    In answer to your question, Congressman, the principal 
concern here is not development per se in a Special Use Permit 
Area. The Park Service recognizes the need and right of the 
Tribe to develop their land. What we are concerned about is the 
following: that the U.S. Government, in partnership with the 
State of Florida and others, is about to embark on a multi-
billion dollar effort to renovate the ecosystem in that area. 
We are concerned about the quality, the quantity, the timing, 
and the distribution of water in that area.
    That's not to say that development on the Special Use 
Permit Area is inconsistent with that, but without wanting to 
tread too deeply into the litigation----
    Mr. Faleomavaega. Mr. Cohen, could I interrupt, basically? 
You said that the Federal Government is now doing a 
comprehensive work study relationship with the State of 
Florida, but I've never heard you mention the Tribe included. 
And I wonder if--I get the sense that the Tribe is the third 
priority, rather than on an equal partner, or an equal level, 
or a sense of equity that when the Federal Government is in the 
process of expending a multi-billion dollar project in the 
Everglades, that the Tribes, not just the Miccosukee--I suspect 
even the Seminole Tribe is probably involved in this. Am I 
correct? Or are they outside of the Everglades park system? Is 
the Miccosukee Tribe the only Tribe involved in this?
    Mr. Cohen. No, the Seminoles are----
    Mr. Faleomavaega. OK. So my question to you, Mr. Cohen, do 
I get the impression that it's only the Federal Government and 
the state government that are primarily pursuing this ecosystem 
concern? Are the Tribes excluded in the process?
    Mr. Cohen. No, I believe I said that it was the Federal 
Government, the State of Florida, and others, and you are 
correct, I should specifically have mentioned the Tribe. And in 
fact, it is ironic that there is this ongoing tension between 
the Tribe and the government because if you were to list the 
ten players most concerned about the ecosystem of this area, 
certainly the Tribe and the National Park Service would be in 
your top ten. So your point is well taken.
    Mr. Faleomavaega. OK.
    Mr. Cohen. The point that I further wanted to make, 
however, was that what the Park Service has asked for a 
comprehensive land-use plan for the area from the Tribe. And 
the Tribe has failed to produce it in a manner that responds to 
the planning needs of the Department, and in fact----
    Mr. Faleomavaega. Does the Tribe have resources to come out 
with the expectations of the National Park Service.
    Mr. Cohen. We offered to pay for that.
    Mr. Faleomavaega. Oh, did you?
    Mr. Cohen. Yes, sir.
    Mr. Faleomavaega. Proceed.
    Mr. Cohen. The point is that while there are currently 
pending over a 100 fill permits, we believe the permits should 
not be approved on an ad hoc basis. This is an area that is 
sensitive and strategically located. Given what our task is 
before us, the Park Service believes it would be more effective 
if we had a comprehensive land-use plan.
    We also made the point, incidentally, that if there was a 
comprehensive land-use plan, that every other application that 
was consistent with the plan would then be approved in a very 
quick manner. There wouldn't be an extended discussion about 
how it fits in. Because we would know how it fits in. Had the 
Tribe developed the land use plan, I think we would not have 
had the problems.
    Now, having said all of this, let me make one additional 
point. Congressman Faleomavaega, you weren't here during my 
testimony. I believe we've turned the corner with the Tribe. In 
the last year, we've had several instances where we 
successfully have worked with the Tribe to achieve mutual 
objectives and we've built on that. We are now in the process 
of developing a proposal to submit to this Committee to 
redefine the relationship, to provide that the Tribe can live 
in the Special Use Permit Area in perpetuity and to define the 
standards under which their development would occur.
    I'm very optimistic that we can be successful in this 
effort. So, while I think it's not inappropriate to talk about 
the past, I hope we don't lose sight of what I think is very 
significant progress we're making for the future.
    Mr. Faleomavaega. Did--and there's just one or two--I have 
a few more questions in my mind--is there currently a 
comprehensive plan being made between the Federal Government 
and the State of Florida on a time or benchmark in terms of--
because we're expecting, as you've said earlier, Mr. Cohen, 
this is a multi-billion dollar investment on the part of the 
Federal Government to work in conjunction closely with the 
State of Florida. Has this also already been made with the 
State of Florida? In other words, are we looking at a 5-year 
plan, a 10-year master plan for this multi-billion dollar 
ecosystem planned out?
    Mr. Cohen. Congressman, if I could defer the question----
    Mr. Faleomavaega. Please.
    Mr. Cohen. [continuing] to the Park Superintendent.
    Mr. Faleomavaega. Yes, just give us an idea. Are we now 
having something in place to say that 10 years from now this is 
where we're going to be in the Everglades. And in the process, 
my question is, are the Indian Tribes included in that 10-year 
benchmark or whatever the master plan that is being made?
    Mr. Ring. Sir, there's an Ecosystem Task Force that has 
been working for several years that initially was made up of 
Federal members, but has been expanded to include the Tribes 
and the regional and state and local government 
representatives. It initially has looked at all of the 
different activities that were being independently pursued by 
different agencies and has brought them together and 
coordinated them into a coherent program, and that represents 
about $2 billion worth of capital investment that's intended to 
be spent over the next 15-17 years.
    In addition to that, there are several significant 
additional planning efforts that are going on under the aegis 
of this task force that relate to a comprehensive review of the 
water management system, which----
    Mr. Faleomavaega. I just want to make sure that the Indian 
Tribes are included in the process, that's my----
    Mr. Ring. Absolutely.
    Mr. Faleomavaega. Alright. My next question--I have not had 
a chance to study thoroughly the provisions of HR-190, but I 
wanted to know what the National Park Service position is on 
Mr. Hastings' proposed legislation.
    Mr. Cohen. Well, the administration actually was not asked 
for a position on the legislation, but let me say this. I don't 
think it's necessary. I think that the work that we're doing 
with the Tribe will lead to success. Now there's a third party 
here who will have to be a part of this as well. And that would 
be the State of Florida. There is a provision in the grant of 
the lands from the State of Florida that encompass Everglades 
National Park that says that if the land were ever to be used 
for a purpose other than a park purpose, that land would revert 
back to the State of Florida. So clearly, this land is not now 
and cannot be a reservation, because it would automatically 
have reverted to the State of Florida.
    We are hopeful, at the appropriate point, when we feel that 
we're making some good progress with the Tribe, we would want 
to bring the state into those discussions, as well.
    Mr. Faleomavaega. All right. Mr. Cypress, welcome. I just 
want a quick question, Mr. Chairman, if it's all right.
    Your opinion on the comments that Mr. Cohen has just 
given--do you feel satisfied with the efforts made on the part 
of the National Park Service? They are sincerely trying to find 
a mutual agreement here, and I notice that you're--very much 
wanted to build houses, with the concerns of the ecosystem and 
the environmental, and I wanted to know if the effort being 
made by the Tribe is in conformance with environmental laws as 
far as building or constructing housing?
    Mr. Cypress. Yes, there are about three areas that I think 
I can speak on that would probably be on the opposite with the 
Park's explanation. Let me go back where it says that we did 
not submit a comprehensive plan. We did so and it took them 
more than two-and-a-half years to answer. Then, finally, a 
hurricane came and that became an explanation to everything 
that could not be answered.
    Then, when we applied directly after letting them know that 
we waited more than ample time, that we're going to go directly 
to the court--and we did. And at that time the court asked for 
what we call an ``accommodating period.'' And that's when the 
park says that they can't do that.
    So, if we can get the permit from the Corps of Engineers, 
they are the people who are charged with protecting the 
environment, overseeing the environmental laws, and if they 
felt that our designs and plans meet that criteria, we do meet 
those environmental laws.
    Secondly, we're in the stage now of developing where 
Congress has said that Indian Tribes would be treated as states 
to set their water standards. Right now we're exceeding the 
State of Florida and hopefully with our water standards that we 
will help clean the park. Right now they're accepting the 
pollution that's coming through and that's acceptable, and yet 
they're worried about us polluting any more. So it's the other 
way around. That's No. 2.
    And second, while in demonstration and talking on--of the 
earlier statement of Cohen, not this go-around, but before--
said that he had worked with us by doing something with the 
Department of Transportation. That is only after we find some 
material that was telling the Department of Transportation not 
to do that. Because giving Indian people more land--what FDOT 
was going to do through the State of Florida, saying that if he 
gives Indians more land that makes him more--more permanent and 
it was not good for the park. And this is where they wanted--
where the Secretary would take it. Then, at his discretion, he 
could call it what he wanted.
    Mr. Faleomavaega. How many members in your Tribe?
    Mr. Cypress. We have 403.
    Mr. Faleomavaega. And the total acres that the Tribe and 
the Federal Government have agreed for you to settle in the 
Everglades?
    Mr. Cypress. Three hundred thirty-three.
    Mr. Faleomavaega. Three hundred thirty-three acres? Or 
333----
    Mr. Cypress. Right, and at one time it was a 100,000 acres.
    Mr. Faleomavaega. What happened to the 100,000 acres?
    Mr. Cypress. They termed it national park and almost 
evicted us. And we moved to the northern portion of the park 
and that's where we stayed and said we're not going to move 
anymore, because that legislation putting from the state 
reservation, the coming apart, that Florida knew that they were 
devising a home there, but still making it into a park where 
Indian people would continue to live there.
    Mr. Faleomavaega. Mr. Cypress, within the Everglades, what 
is the traditional boundaries or what was rightfully the 
Miccosukee land base?
    Mr. Cypress. Oh, gee whiz. That's a good question because 
that's the dispute we have most of the time, because under 
European system, they put survey markers and highways and say 
we're----
    Mr. Faleomavaega. But obviously it's more--it was more than 
a 100,000 acres.
    Mr. Cypress. At one time it was 2.5 million acres.
    Mr. Faleomavaega. All right, that's what I wanted to know.
    Mr. Cypress. This is by President Polk of Executive Order. 
And I forget the year.
    Mr. Faleomavaega. So from 2 million acres, 100,00 acres, 
now you're told to live only in 333 acres?
    Mr. Cypress. Right. And then the National Park is over a 
million acres, so you can even be less than one----
    Mr. Faleomavaega. So suggesting that maybe the park can be 
even a little more generous by giving you 100,000 acres to live 
in. Will that cause a population explosion, Mr. Cohen, in the 
Everglades?
    Mr. Cohen. Let me just add that the Tribe also has a 
75,000-acre reservation north of the park.
    Mr. Faleomavaega. How many miles is that from where they're 
living?
    Mr. Cohen. I'm sorry?
    Mr. Faleomavaega. How many miles is that from where they're 
living?
    Mr. Cohen. I think it's a 1-hour drive. But I think it's 
fewer miles by virtue of the road configuration. They also have 
rights in Big Cypress, which is immediately adjacent, for 
carrying on traditional activities, including----
    Mr. Faleomavaega. How many acres in Big Cypress?
    Mr. Cohen. Pardon?
    Mr. Faleomavaega. How many acres in Big Cypress?
    Mr. Ring. Sir, there are approximately 700,000-750,000 
acres in Big Cypress and there are provisions in the Big 
Cypress legislation to provide for the Tribe's use of 
traditional areas, as well as a right of preference for new 
commercial services.
    Mr. Faleomavaega. So what does that mean? Within the 
700,000 acres are the Miccosukee given any specific--they can 
use the 700,000 acres for traditional, cultural means?
    Mr. Ring. As I said, the provision is for the use of 
traditional sites that were used within--by the Tribe and by 
both Seminole and Miccosukee Indians.
    Mr. Faleomavaega. Mr. Cypress, can you comment on that?
    Mr. Cypress. Yes, sure I can. If we can get this problem 
resolved, we will get into Big Cypress Preserve because it's 
even more clearer than the 1934 Act and this is the seventies 
we're having a tough time with. It says we would have building 
homes for subsistence, our traditional homeland and hunting. 
And we also were entitled to first refusal. You know, there's 
developments going on, businesses going on; we have not 
received any notice telling us that this is going to go on, 
``What's your thoughts on how can you submit a proposal to 
us?''
    So this is what our complaint to the Preserve people--that 
we are having a problem with parks in general, not only the 
Everglades National Park, but the Big Cypress Preserve.
    Mr. Faleomavaega. So even at Big Cypress, does the 
Miccosukee have a say for the developments that's going on in 
the National Park Service, Mr. Cohen?
    I'm sorry, Mr. Chairman, I think I've taken too much of the 
time already, but I do have several questions. I will pursue 
this definitely in the coming weeks. I just wanted to clarify, 
Mr. Chairman and Mr. Cohen, you say that the 700,000 acres in 
Big Cypress--and I see a map here before me--that the 
Miccosukee Tribe does have certain rights to that 700,000 acres 
and I'm not clear on it.
    Mr. Cohen. Mr. Chairman, if we may, let us submit for the 
record an explanation of what the rights are in Big Cypress----
    Mr. Faleomavaega. Please.
    Mr. Cohen. [continuing] precise rights are of the Tribe----
    Mr. Faleomavaega. I would appreciate it.
    Mr. Cohen. [continuing] with regard to that area, as well 
as other areas around it.
    Mr. Faleomavaega. And I would also like to submit for the 
record, if you could submit for the record, what kind of 
development, concessionaires, business people, hotels, or 
whatever is being built in the Big Cypress, if any, in the 
process. Is that alright? And I would like to ask Mr. Cypress 
to submit your opinions on the Big Cypress, as well.
    Mr. Cypress. Yes.
    [The information referred to follows:]
    Mr. Faleomavaega. Thank you, Mr. Chairman. I'm sorry to 
take----
    Mr. Hansen. No, no. That's fine.
    Mr. Cohen, I'm missing something here. What's the big deal? 
We're talking 500 feet? We won't we just give it to them and 
get it over with? Take it out of the park. You could do that 
with simple--I would think you could do that administratively. 
If not, we could do it in our omnibus land swap bill we put 
through here every year. Why is--and I'm not trying to be 
unkind to the Interior Department--why is it such a big deal to 
the Interior Department?
    Mr. Cohen. Mr. Chairman, please recall that in the 
beginning I pointed out that the 333 acres is a five-mile strip 
of land precisely where the water flows. Two of the four 
structures through which the water flows are immediately 
adjacent to this land. Three hundred and thirty-three acres are 
not that much. It just happens to be where these 333 acres are.
    The other reason why we couldn't do this administratively 
is we don't have the authority to, but second, if the land is 
used for a purpose other than park purposes, it will 
automatically revert to the State of Florida.
    Mr. Hansen. Well, what if the structures you're referring 
to in the legislation just protected that; would that bother 
you?
    Mr. Cohen. Mr. Chairman, my point again is that it doesn't 
matter whether this parcel of land is inside or outside the 
park with regard to its implications for the multi-billion 
dollar restoration. The ramifications on the park are without 
regard to the geographic boundaries. What is important is 
whether we can come to terms with the Tribe on how development 
will proceed. We think we can. Now, Chairman Cypress indicated 
that they had submitted a comprehensive land-use plan that we 
had requested. That was a site plan that they submitted and it 
showed the 65 houses and the administrative buildings they 
wanted to build. Subsequent to the submission of this so-called 
comprehensive land-use plan, they submitted a request for fill 
for 100 more houses and other development that were not on that 
plan. So it was not a comprehensive land-use plan.
    Mr. Hansen. Mr. Cypress, what's your objection to that?
    Mr. Cypress. We did submit it and it was good enough for 
them back then and it's their part--and then they said put what 
you think is going to be; so we did add more. And then they 
said it was too much. What it said was, ``Tell us what you 
think you're going to need in future, but what is your 
immediate needs now?'' So we addressed immediate needs then, 
and said this is what we would need in the future, and they 
said, well, you can't do that.
    Then, also, I'd like to point out that Solicitor Cohen 
saying that they're working with the Tribe, giving housing, and 
they offered to settle, that we refused, is that what they said 
was, that if we allow you to build--allow you, this is the 
thing about it, allow you to build--we'll give you 25 homes and 
no more development. That's like saying, well, we're going to 
have zero population. Now where can you impose that kind of 
sanction on a human being? Even if we talk about communism, 
other places, even they don't allow that. They at least have 
one child.
    Mr. Hansen. I'm missing something. It seemed that somebody 
said that the Tribe is willing to comply with all clean water 
standards, comply with the dredge and fill standards, the 
shooting match. Is that right? Is that a correct statement?
    Mr. Cypress. Yes, we're willing to meet and have met the 
environmental laws. But we will not go and meet how our growth 
of our Indian race. This is where it's got to stop, where 
people talk about man-made laws, playing God, that's got to 
stop. Everybody says this is 20th century, not the 1800's, 
1900's, but it still goes on today. We're still living into 
what we call double standards and double law. So forgive me 
for----
    Mr. Faleomavaega. Will the chairman yield?
    Mr. Cypress. [continuing] but this is what we're faced 
with. So when you hear people make presentations that this is 
what they did for us and we refused, they didn't tell you what 
the conditions were.
    Mr. Hansen. I'm a tad confused. It seems like this isn't 
exactly a big deal. Why are we making it one?
    Ms. Christian-Green. Will the chairman yield, just to make 
a brief statement, because I do have to leave? And I want to 
apologize for coming in late and having to leave----
    Mr. Hansen. The time is yours.
    Ms. Christian-Green. But I just wanted to join my 
colleagues in hoping for a resolution that's going to be 
equitable and satisfactory to everyone and I'm encouraged to 
hear that one is coming. But whenever this committee has an 
issue involving a Native American Tribe, the issue of 
recognition of their sovereignty is also a central part of the 
problem. And in negotiations and discussions, I'm not always 
certain that the sovereignty of the Native Americans Tribe is 
recognize. And I know that's a concern of my ranking member, 
and I just wanted to voice that concern because I hear it 
surfacing again. And if the resolution of this is to be an 
equitable one, it has to be one that's based on the recognition 
of the sovereignty of the Miccosukee Tribe.
    Thank you, Mr. Chairman, for allowing me to make that 
statement.
    Mr. Faleomavaega. Will the chairman yield?
    Mr. Hansen. Thank you. The gentleman from American Samoa.
    Mr. Faleomavaega. I just am curious, because we've got 
approximately 400 people that have been given this little plot 
of land, 333 acres, to live on. Is the National Park Service 
considering the fact that there's going to be more than 400 
people in the next 10 years as far as the population of the 
Miccosukee Tribe? What happens if they are going to be needing 
more houses to build so that the, you know, the next generation 
of the Tribe is going to expand. Obviously, there's going to be 
more than 400 10 years from now.
    You indicated earlier, Mr. Cohen, that there's 75,000 acres 
a little bit north of--is it outside of the Everglades Park? Is 
that an official designated area as a reservation of the 
Miccosukee Tribe? I just want to understand a little bit more.
    Mr. Ring. Sir, the 75,000-acre area is a reservation----
    Mr. Faleomavaega. Is it livable? Or is it a swamp?
    Mr. Ring. Almost all the land we're talking about in the 
Permit Area or on the reservation is part of the wetlands 
system of the Everglades. To build on it and develop on it 
requires fill and wetlands and impact on that environment.
    Mr. Faleomavaega. I noticed there are some very beautiful 
homes built on this 333-acre strip, but I'm curious, Mr. 
Cypress, can you comment on this 75,000 acres?
    Mr. Cypress. The 75,000 that we're talking about is north 
of the permanent area about 25 miles and you got to go to 27N 
to I-75, then to our reservation 25 miles in, and this is--
here's another problem. I'm glad you brought this up. Not only 
to get onto our land, the State of Florida, in its wisdom, 
being that this road was going to benefit the tribe--we have 
not benefited, but paid to visit our land. A dollar each way, 
or 75 cents each way and they said we're benefiting from it. 
And I said does the toll both belonged to the Tribe? They said, 
no, that belongs to the Department of Transportation.
    So not only we have to pay to get on our land, but then we 
have--the economic development when the State of Florida had 
it, it would give out our leases when we sued the State of 
Florida as trustee for us; it did everything for other people, 
except the Tribe, but we took it, that land, and put it into 
Federal as our trustee, and we're still getting the same 
treatment. I guess we're bad luck with people with--who become 
our trustees. But we sued to get that benefit, but also when 
the Tribe took its land of 75,000 acres, we said that we're 
going to go--continue with oil exploration and development. 
Next thing you know, the Cabinet says you can't do that. You're 
in violation of wetlands.
    Mr. Hansen. Will the gentleman yield?
    Mr. Faleomavaega. I yield to the chairman, I'm sorry.
    Mr. Hansen. Let me thank the witnesses for being here and 
the very interesting and provocative testimony you've all given 
us. I have a vote and my friend from American Samoa doesn't 
have a vote, so I'm going to turn the gavel over to him.
    Mr. Faleomavaega. So much for democracy, Mr. Chairman.
    Mr. Faleomavaega. He'll run the show, and let me thank each 
and every one of you. I would like to get this thing resolved 
for folks, if we could. If there's a way to do it in an 
amicable manner, I'm all for it. I turn it over to my friend 
here and I'll go vote. And I won't be back, so----
    Mr. Faleomavaega. [presiding] Thank you, Mr. Chairman.
    At least for the record, I would like to request, Mr. 
Cohen, on behalf of the National Park Service, and Mr. Cypress, 
please, you're welcome to submit for the record any other 
needed information to be made part of the record as far as your 
position that has been taken as far as the areas that we've 
discussed this morning.
    [The information referred to follows:]
    Mr. Cohen. Congressman, let me just make one additional 
point----
    Mr. Faleomavaega. Please.
    Mr. Cohen. [continuing] about the expansion, if I may. One 
of the many reasons why we felt that a comprehensive land-use 
plan was important is that it would truly forecast future 
growth. I would contemplate in advance, rather than on an ad 
hoc, application-by-application basis, how growth would be 
managed in the area so that we could plan for it.
    Mr. Faleomavaega. You know, under the provisions of the 
Federal Constitution, the Congress has been given plenary 
authority to deal directly with the Indian Tribes. And then, in 
the process, the Congress has delegated this basic authority to 
act as trustee on behalf of the Indian Tribes or as the lead 
agency, or their lead advocate in the person of the Secretary 
of the Interior. And I'm sorry that we don't have anybody from 
the Bureau of Indian Affairs here as the primary spokesman on 
behalf of the Indian tribes.
    But I want to go back where there's some sense of history 
on this. Mr. Cohen, the fact that the Miccosukee tribe at one 
time held, as far as they know, to be their sovereign rights on 
the lands here that is now known as the Everglades, some two 
million acres of land. And I am sorry that whoever made the 
confederations and now I understand that the whole Everglades 
is now under the authority of the State of Florida. Is this--I 
thought that this was under the Federal Government.
    Mr. Ring. Congressman, the whole remaining Everglades is 
much larger than the areas that are under Federal jurisdiction. 
So there are some that are under Federal jurisdiction like 
Everglades National Park, but there are significantly large 
areas, for instance, the water conservation areas north of the 
park, that are under state administration and ownership.
    Mr. Faleomavaega. The point I'm making is there in the 
process--am I to understand that--if the Federal Government 
decides not to hold any more jurisdictional authority over 
these lands that are now called the Everglades, it reverts 
automatically to the State of Florida?
    Mr. Cohen. The large portions of the park were donated to 
the Federal Government when the park was created. That donation 
had a reverter clause in it that said that in the event that 
the land is not used for park purposes in the future, it would 
revert to the State of Florida. Now, that's not to say that in 
our discussion about a settlement for a new piece of 
legislation to govern the relationship--it would be our hope 
that the State of Florida would participate in those 
discussions, and that they would agree to the new legislation.
    Mr. Faleomavaega. Mr. Cypress, have you ever considered 
looking at why your two million acres was--all of a sudden 
disappeared?
    Mr. Cypress. This is--I mentioned this earlier, that it's 
always somebody making decisions for Indian people without 
talking with them, letting them know, or be part of it. So the 
State of Florida and the park worked on this, as you hear 
``donation.'' We were right in the center of what is known as 
the national park today. But we were evicted from the homelands 
with the tribe's not having a consent to--not having any 
confrontation. So when it's over and done with, the sheriff 
evicted some of our Indian people and that's why they went to 
north on the Tamiami trial. Well, it is not as pristine as the 
park makes it where it's the water. It isn't. That was the main 
stream of a road from Tampa to Miami. That's why it has that 
name, Tamiami. So----
    Mr. Faleomavaega. And at the time, neither the Federal 
Government, nor any of your own people could afford an attorney 
to prevent any evictions or any [unintelligible] whatsoever.
    Mr. Cypress. We had no money, no voice. That is correct. 
And on top of that, the State of Florida went and got what you 
call Public Law 280 without Tribe's consent either. But a lot 
of these things were done--where the Tribe just wants to be 
left alone in its own traditional lifestyle, law, even that, 
sometime we have a conflict, of traditional law. But here, a 
lot of these things were done because the Tribe--Indian people 
really don't want, you know, outside contact, but just be left 
alone. With it, everybody was what we call land-swapping, land-
dealing, and then before you know it, we had the sheriff tell 
us, ``This is not your land. You have to move.''
    Mr. Faleomavaega. If I could hear correctly from Mr. 
Cohen's earlier testimony, it's not that you're not unwilling 
to allow the Miccosukee Tribe from development. Am I correct on 
this?
    Mr. Cohen. Absolutely correct.
    Mr. Faleomavaega. You just want them to conform to the 
comprehensive plan of the ecosystem that is being utilized both 
by the State of Florida and the Federal Government?
    Mr. Cohen. Yes, but they are--as a participant in that 
restoration, I don't have any doubt that they will do that. And 
obviously the development also has to be consistent with the 
purposes of the park, as Congress articulate them in the 
statute that created the park.
    I also believe that's quite doable. So as I say, I'm trying 
to focus on the future in this testimony. I think we're very 
close. I think that the history of the last 4 or 5 years has 
been quite unfortunate, but I don't think it has to or should 
dictate what happens in the future.
    Mr. Faleomavaega. Well, but by developing the 333 acres, 
Mr. Cohen, where are these people going to go after this? These 
acres are going to be full of houses. I mean, where--does the 
park not mind at all if they continue to develop beyond the 333 
acres?
    Mr. Cohen. The purpose of the land use plan was to address 
that issue. I don't know what the carrying capacity, if you 
will, of 333 acres is. There are a fair number of open spaces 
there. But I'm also not an urban planner or a community 
planner, and absent the plan, I think it's very difficult to 
address that issue. The Superintendent, I think, wants to say 
something.
    Mr. Faleomavaega. Please.
    Mr. Ring. Congressman, the very--one of the very 
fundamental issues with the problems besetting the Everglades 
right now is that since the turn of the century about 50 of the 
footprint of the Everglades has been lost to development. From 
all sources within South Florida. As the population has grown 
from less than 100,000 to six, over six million. That is 
projected to triple over the next 50 years. And with 50 loss in 
the spacial scale of the Everglades, we've lost 90-95 of the 
wading bird populations and there are 56 endangered species 
down there.
    So yes, the issue of where and how future development is 
going to occur is a fundamentally important issue to whether or 
not the Everglades survives. I mean, it is a basic, underlying 
concern of the whole ecosystem restoration effort and of 
accomplishing the purposes of the preservation of the park.
    Mr. Faleomavaega. Mr. Ring, you're the Superintendent of 
the Everglades Park?
    Mr. Ring. Yes, sir, I am.
    Mr. Faleomavaega. How many business concessions do we have 
now in the Everglades Park. As the Superintendent, how many 
business concessions are there now in place?
    Mr. Ring. As concessions we have a one-act Flamingo which 
is an over--which provides the marina operations store there, a 
restaurant and----
    Mr. Faleomavaega. How much does the State of Florida gross 
each year out of the park system? People visiting there, paying 
fees and whatever that is offered there? Is there some entry 
fees where they visit the park?
    Mr. Ring. The State of Florida doesn't gross anything, the 
National Park Service----
    Mr. Faleomavaega. How much do we gross a year on the usage 
of the park?
    Mr. Ring. There are entrance fees, there are certainly 
revenues collected from concessions. The impact on the regional 
economy of the approximately one million visitors that visit 
the Everglades every year has been estimated to be about $120 
million dollars a year.
    Mr. Faleomavaega. So the National Park Service gets about 
$120 million dollars for visitors using the park, am I correct?
    Mr. Ring. That's the impact of all of that activity on the 
regional economy. There are multiplier effects from one dollar 
being introduced into the economy being spent----
    Mr. Faleomavaega. And the fact that you have one million 
visitors that go to the park every year.
    Mr. Ring. There are about one million visitors and the 
impact on the regional economy has been estimated to be about 
$120 million a year.
    Mr. Faleomavaega. OK. One million visitors to the park and 
we're talking about 400 Indians that are trying to live in 333 
acres. Mr. Lehtinen, have you had a chance to look into the 
historical aspects of the Miccosukee Tribe and why hasn't there 
been a proper litigation in terms of claiming what is 
rightfully theirs as far as their land ownership?
    Mr. Lehtinen. Well, Mr. Chairman, the shortest answer I can 
give is that when the Monroe Reservation was abolished in 1935, 
and the state tried to swap it for land in the north where no 
Miccosukees lived and where none live today and when the park's 
own retained expert cultural anthropologist was asked what 
would happen if you made the Miccosukees in the future live 
there, he said it would be cultural genocide and one of the 
worst chapters in American policy.
    The Tribe has looked at that, but the--and there were some 
claims filed and agreements reached that allowed the tribe to 
use water conservation area 3-A for traditional use and access, 
but not build permanent homes with electricity and utilities. 
The reservation, the no good reservation, the one that would 
have amounted to a 19th century Indian removal policy if you'd 
have forced them up to the 75,000 acres, that's really not for 
practical purposes available.
    Big Cypress is traditional use and access. So when they 
agreed in 1982 to traditional use and access and in the Big 
Cypress Law to the provisions they did, they thought they had 
the right of traditional use and access throughout Everglades 
Park and the right to build. The real key over here, as Mr. 
Cohen and Mr. Cypress indicated, the real key now is where you 
can build your homes, your electricity, your satellite TV 
dishes, and so forth. And they thought they had that 
guaranteed, with the testimony we've given earlier, in the 
permit area. And that the permit area could be expanded. 
Because whether it's 500 feet deep or 1,000 deep, or 1,500 
deep, as Mr. Cohen said, it's really the length along the right 
away that matters, water flow. And compared to a million and a 
half land acres and more than two million if you count the 
water acreage of Everglades National Park, it's not 
significant.
    So the reason the previous litigation has either not been 
successful or settled for the traditional use and access was 
that mostly the tribe wants traditional use and access to its 
historic lands. And they want them preserved. Now, we are in 
litigation over the fact that after they were given traditional 
use and access to Water Conservation Area 3-8, about 80,000-
90,000 acres in its natural state, the state--I was the U.S. 
attorney who sued the state for failing to enforce its law 
against, not these 400 Indians, but against 400,000 industries 
and businesses that are killing the Everglades these people 
live in. And we have sued over, not the right to build a home 
in 3-A, but the fact that neither the Federal nor the state 
government will enforce the laws to keep 3-A from deteriorating 
and being destroyed in its natural state. So if the tribe were 
guaranteed its right to develop in the limited areas it needs 
to develop, that would amount to the land-use plan, that in 
this 300 or 600 or 1,000 maybe it should be, that's where you 
can build, put pavement, put in utilities and then their 
historic right to hundreds of thousands of other acres might 
well be preserved if--not the subject here, but I testified 
before this committee in 1993 in Key Largo to the fact that 
what the government needs to do then is protect that 100, 200, 
300,000 acres from degradation, from pollution. But that's 
another matter and the Tribe is suing these governments to make 
sure that they don't let these homelands be polluted.
    But the battle over development really is, to clarify this, 
is the right to build and there's been no claim ever, the 1962 
permit says that the flow ways will be maintained. The water 
flows through, there's no problem there. I serve on the 
comprehensive--on Secretary Babbitt's, the congressionally 
created South Florida Ecosystem Task Force. I serve on the 
Governor's Commission for a Sustainable South Florida by 
appointment of Governor Chiles and there's no indication that 
anything the Miccosukees have done affect the, you know, the 
restoration efforts.
    If I might add, on a couple of other questions that you 
raised, Mr. Chairman, I want to make it clear, the Miccosukees 
are the only people, Indian or non-Indian, who live in the 
Everglades. The Seminoles have an interest, as do I, a non-
Indian who lives in Kendall, born and raised in South Dade, but 
I don't live in the Everglades, only the Miccosukees, not the 
Seminoles, not the water management district, nobody else, not 
me, lives in the Everglades. So oddly enough, they get the 
pollution that the Federal and state governments refuse to stop 
in the 650,000 businesses and homes that really pollute the 
Everglades and they get told they can't build their 65 houses.
    Mr. Faleomavaega. Mr. Cohen, could you comment to that?
    Mr. Cohen. I also hesitate to try to comment on anything 
Dexter says because he crams in so much in such a short period 
of time. Which ``it'' do you want me to comment on?
    Mr. Faleomavaega. Just the last sentences that Mr. Lehtinen 
had indicated that 650,000 pollutants----
    Mr. Cohen. Well, that's what we're spending multi-billions 
of dollars on, is to try to stop that pollution. We're not 
encouraging that pollution. I don't know how else to respond to 
that.
    Mr. Faleomavaega. The Miccosukee are the ones getting it. 
Am I correct on that?
    Mr. Cohen. So is the National Park.
    Mr. Faleomavaega. OK.
    Mr. Cohen. And the refuges.
    Mr. Faleomavaega. OK.
    Mr. Cohen. That's why we have fifty some odd endangered 
species. That's why the ecological carrying-power of this area 
has been reduced 90 percent.
    Mr. Faleomavaega. You don't think the Miccosukees are as 
sensitive to the environment because they live there?
    Mr. Cohen. I think the Miccosukees are every bit as 
sensitive, if not more so. That's not--Mr. Chairman, let me 
respond to this issue, I mean, I've been sitting here playing 
with whether I can respond to this because of the litigation--
--
    Mr. Faleomavaega. No, no. You definitely----
    Mr. Cohen. [continuing] because of the litigation. And 
there was a reason why the Park Service did not approve all 60 
houses. There was a legitimate disagreement as to whether 
construction of those houses would in fact degrade the 
Everglades----
    Mr. Faleomavaega. Mr. Cohen, was the disagreement based on 
interpretation of statutory law or was it regulation or what? 
How did the disagreement come about? Is it by regulation or by 
law that we have this serious problem?
    Mr. Cohen. Congressman, those are the matters before the 
court.
    Mr. Faleomavaega. No, no, no. I just want to know it is a 
disagreement on the interpretation of the law? Or is a 
disagreement on the interpretation of the regulations?
    Mr. Cohen. The regulations are promulgated pursuant to 
statute, so if you violate regulations, you also violate the 
statute.
    Mr. Faleomavaega. OK.
    Mr. Lehtinen. Might I comment, Mr. Chairman? I appreciate 
the informality.
    Mr. Faleomavaega. Please, go ahead.
    Mr. Lehtinen. There was a comment about comprehensive land-
use plans and because those are code words and some legitimacy 
to them, I wanted to point this out. I've been in that business 
for many years and comprehensive land-use plans traditionally 
will say ``this thousand acres is residential, this 2,000 is 
commercial, this 5,000 is to be preserved.'' To say that an 
area, as was done in 1962, that 333 or perhaps it should be 666 
or 1,000, but that a certain small area is designated for 
development and building is itself a comprehensive plan. The 
park has a million and a half acres, it says Flamingo can be 
this, they plan for this, they have--a lot of it is wilderness 
area, isn't gentlemen? Designated wilderness, true Federal 
wilderness area. And that this area, 300 to 1,000 acres will be 
development, that is a comprehensive plan. When you ask someone 
to show where in your 333 you're going to build and how you're 
going to build, that's a site plan. That is micro-management 
land use. That's a super-zoning office or even more than 
zoning. Actually, comprehensive plans will be a 2,000 acre 
area. And then zoning will zone areas, you know, like I live in 
an area that's more than 500,000 acres, it's zoned single 
family residential.
    So comp planning would be a 10,000-acre, a 1,000-acre 
parcel. Or a development line, beyond which you don't develop 
in Dade County. Zoning would be 300 acres is zoned for 
residential and commercial. And--so that's--even zoning is 
below, lower than comp planning. And to go into the detail 
about what they're going to do with their land is truly a sight 
plan, micro-management, that's interference with it.
    The standard, again, and I think you asked, Mr. Chairman, 
to reiterate--the tribe accepts that nothing it does can damage 
or pollute the outside. Since 1962 they've been committed not 
to blocking the flow ways and so forth. It's the non-Indians 
that built that road. They wanted the Indians out of park and 
they told the Indians ``you've got to build along the road, 
because we've already built a road there and we already block 
the flow.'' Now they turn around and say, ``even though there 
are flow ways and the Indians have done nothing to block 
them''--in fact, the Indians have committed even to if you made 
a mistake, the permit says this and we hate to point it out, 
but if says ``if the non-Indian made a mistake and something 
was built where later it blocked the flow way, they actually 
can remove it. So these, we think, are strawmen issues, and 
while comprehensive planning sounds good, it's not applicable 
to 300 acres. And if I might just say realistically, the other 
problem with comp planning, those of us in the business know 
that they don't go to a 300 acre--that small a parcel. But even 
the 10,000-acre parcels they designate for this or that, you 
know how good they are? They're as good, until you get twelve 
votes on the Metro Commission or until you get seven votes on 
the Metro Commission. I haven't since a comp plan that isn't 
busted the day the special interests get--you make a comp plan 
today and it's changed tomorrow. It's only as good as the 
political power that is involved. So to transfer this idea that 
somehow a comp plan not applicable to 300 acres, that small a 
parcel, that's really micro-management, would be the 
appropriate methodology because it has a certain ring to other 
land-use planning, is inappropriate because comp planning has 
not worked for the non-Indians in really protecting the 
environment and comp planning doesn't apply even to acres--to 
parcels as small as 300.
    Mr. Faleomavaega. Thank you, Mr. Lehtinen. Let me just ask 
Mr. Cohen one more time, I just wanted to clarify in my own 
mind. It is by Federal statute that we have given 333 acres to 
the Miccosukee Tribe to utilize?
    Mr. Cohen. No, sir. The legislation provides that Tribe may 
continue to reside in the park, so long as----
    Mr. Faleomavaega. Federal legislation?
    Mr. Cohen. Yes.
    Mr. Faleomavaega. Just like we've done to the Seminoles?
    Mr. Cohen. Yes, sir. So long as it is not inconsistent with 
park purposes.
    Mr. Faleomavaega. So long as the sun rises and every blade 
of grass, and all of that?
    Mr. Cohen. The mechanism for doing that was a Special Use 
Permit which identified these 333 acres that was entered into 
in 1962.
    Mr. Faleomavaega. So the--I'm still not clear on this. The 
333 acres, who designated the 333 acres? Or which agency? The 
Federal Government did? The Congress did?
    Mr. Cohen. The National Park Service.
    Mr. Faleomavaega. The National Park Service?
    Mr. Cohen. Yes, sir.
    Mr. Faleomavaega. And this is by authority from the 
Congress to do so?
    Mr. Ring. No, sir. There's no specific authority that 
describes the permit or the 333 acres. There is a provision in 
the act establishing the park that defines its purposes--the 
purposes of the park, and then there is a clause that reads 
``nothing in this act shall be construed to lessen any existing 
rights of the Seminole Indians which are not in conflict with 
the purposes for which Everglades National Park is created.''
    Mr. Faleomavaega. Yes, I saw that in the law. And this same 
provision also applies to the Miccosukee Tribe?
    Mr. Ring. At the time the--I believe it was, the term, 
``the Seminole'' was used to refer to both Seminole and 
Miccosukee.
    Mr. Faleomavaega. Is that your understanding, Mr. Cypress?
    Mr. Ring. They have been recognized as separate tribal 
entities since that time.
    Mr. Cypress. What it is is that Miccosukee composes, makes 
up the Seminole, is about 75 percent or 50 percent. So what 
you're talking about--today there are two tribes. And before 
that they just labeled everyone Seminole. And Miccosukee tribe 
is a little bit more clearer bloodline and Seminole tribe today 
has two mixture blood mixed together. One-Miccosukee blood, and 
another one called Creek Indian from the northern Florida or 
Alabama. So when you get--it's like, the Creeks, pure blood of 
Miccosukee--in between is the mixture.
    Mr. Faleomavaega. All right. I'll take that. I'll accept 
that.
    Mr. Cypress. OK, this is why that most people recognize 
Seminoles for a long time until they find out. Now most 
anthropologists and everybody else now say that, gee, the real 
Indian people had been Miccosukee.
    Mr. Faleomavaega. You don't have to talk to me about 
anthropologists. The next anthropologists I catch coming to my 
island, I'm going to shoot them.
    Mr. Cypress. Yes, that makes two of us. But even they 
admit----
    Mr. Lehtinen. Mr. Chairman, might I add, Dexter Lehtinen 
for the record, the Tab 10 might be useful to you, Mr. 
delegate, because that letter, 1962 BIA transmittal letter, 
explains why they're doing a permit and it says that this is 
consistent with the intent of Congress in the 1934 act, but 
that was----
    Mr. Faleomavaega. What I'm trying to get at, Mr. Cohen and 
Mr. Lehtinen, is that if there has been any real expressed 
statutory conveyance by the Congress, by boundaries, by 
acreage, whatever it is, given to the Miccosukee Tribe as their 
reservation. That's what I'm trying to get at. Now, apparently, 
from what you're telling me is that there has not been done.
    Mr. Cohen. No. The answer is no.
    Mr. Faleomavaega. It's by The National Park Service and the 
BIA regulation, based on this statute that was enacted, I 
believe, in 1934 originally. So there really has been no real 
designation of any certain number of acres per se to the 
Miccosukee Tribe like we've done in the past for other Indian 
tribes in the country. Am I correct?
    Mr. Cohen. Not by the Congress.
    Mr. Faleomavaega. That's right.
    Mr. Cohen. The Special Use Permit----
    Mr. Faleomavaega. That's right.
    Mr. Cohen. [continuing] does define the----
    Mr. Faleomavaega. We've just declared the whole Everglades 
as The National Park Service, right? With these provisions that 
for the purposes of use of the Miccosukee or the Seminoles, 
that they do--they can live there under a special use permit 
issued by the National Park Service or in conjunction with the 
Bureau of Indian Affairs.
    Mr. Ring. Delegate, there is one reference that is in the 
Settlement Act that was approved by Congress in the early 
1980's for the Miccosukees that refers to both the 75,000-acre 
reservation, but it also refers to the permit.
    Mr. Faleomavaega. You're saying that there was a Settlement 
Act----
    Mr. Ring. Yes, there was.
    Mr. Faleomavaega. [continuing] that relinquished the right 
of the Miccosukee to the parks by giving them 75,000 acres and 
then they have to pay a toll fee to go to their----
    Mr. Ring. There was a Settlement Act that was approved in 
the early 1980's that made reference--my understanding was----
    Mr. Faleomavaega. And did the Miccosukee Tribe accept that 
as settlement, Mr. Cypress?
    Mr. Cypress. The reason that went with it is because 
Congress and the park had agreed that Indian people were going 
to have land in the park already. And also, this agreement was 
for the Area 3, north of the national park. Because what was 
outstanding was, as I said earlier, is that the Executive Order 
claiming, I think it's about between 4 million and 2.5 million 
covering five counties to be Indian land, of Executive Order, 
and this is what the reduction was made. And it also did not 
distinguish aboriginal rights to those areas. Not only Collier, 
Dade, Monroe, even in the national park.
    Mr. Faleomavaega. Mr. Cypress, am I correct to say that the 
75 acres that have been allotted, and I assume that was part of 
the Settlement Act, was never part of your traditional area of 
living?
    Mr. Cypress. That is correct. Except, I mean, at one point, 
the 75,000 acres that is there is on the borders, but then at 
the same area that, as I mentioned earlier, Creek, the mixture, 
live there and the tribes were isolated from one another and I 
knew some were down the road that you would be passing----
    Mr. Faleomavaega. OK, but my question, Mr. Cypress, the 
75,000 acres, has that all been surveyed and everything?
    Mr. Cypress. It's been surveyed by the United States.
    Mr. Faleomavaega. And conveyance forevermore it is the 
property of the Miccosukee Tribe forevermore?
    Mr. Cypress. That is correct, but it's not used by the 
Tribe.
    Mr. Faleomavaega. That's what I mean. There's not one 
Miccosukee living there because it's a swamp.
    Mr. Cypress. Right.
    Mr. Cohen. Actually, if I can be a lawyer for one moment.
    Mr. Faleomavaega. Please.
    Mr. Cohen. Title resides in the United States as a trustee 
of Indian reservation land. I just want to correct the record.
    Mr. Faleomavaega. You know, that's what I was thinking too, 
Mr. Cohen. I was wondering when you were saying that if the 
title was to pass, it goes, in your--automatically to the State 
of Florida, that's what I was a little confused about.
    Mr. Lehtinen. And Mr. Chairman, on Tab 15 of the book, then 
entry for 1982 might clarify at some time what happened in 1982 
with the Federalization of that reservation to the north where 
no----
    Mr. Faleomavaega. Gentlemen, I apologize for being somewhat 
too specific perhaps. It's just trying to understand a little 
more the problem, but I--if I'm to understand Mr. Cohen's 
statement, he feels very optimistic that you will find a mutual 
sense of agreement of what can be done. Mr. concern, Mr. Cohen, 
is that it seems to me that 10 years from now, 333 acres is not 
going to be enough for the Miccosukee people to live on. And I 
think--it seems to me that that really is the bottom line. 
Where do you go from there if they're going to be--is there 
going to be a demand for more houses to be built beyond the 333 
acres? And I suppose we can wait 10 years from now. I'll be 
dead by then, but----
    Mr. Cohen. Maybe you'll have a vote in Congress by then, 
too.
    Mr. Faleomavaega. Yes, right. Like I'm really dreaming on 
that, Mr. Cohen. I, as the Chairman said, can we give ourselves 
a little--some slack here and allow, you, Mr. Cohen and Mr. 
Ring, a chance to meet again with Mr. Cypress and see if we can 
resolve this amicably? Hopefully not without litigation, 
hopefully we can do it here. The other option, I was thinking, 
Mr. Cohen, that we will mandate by law, expressing exactly the 
boundaries and the number of acres that perhaps--that is 
needful for the Miccosukee people to declare as their rightful 
place to live.
    Mr. Cohen. That certainly is something Congress could do. I 
would just simply ask that you keep in mind the reverter clause 
that the State of Florida has. With regard to the question of 
whether there's going to be an amicable settlement, I've been 
waiting for Mr. Lehtinen or Chairman Cypress to indicate that 
they, too, are optimistic. I was hoping I was going to hear 
that. We've certainly had some discussions that have led me to 
that conclusion and I know we've talked about the past a great 
deal. I was hoping to hear something positive from them to give 
some credence to my optimism.
    Mr. Faleomavaega. Mr. Cypress?
    Mr. Cypress. OK. You see, I can't compare with being a 
politician to an attorney. I can't compete with that, but I 
will say this: The items in discussion, one through certain 
areas, but then you get to number--you rate it down, and then 
one point takes all that they gave back. That's the problem. If 
there was room for flexibility, fine, but, you know, I've been 
bending back so bad that I began to see what my heels of the 
shoe look like now. That is the problem, and it's time, I 
think, the park needs to understand that there are people 
living there; that they are going to grow; there are going to 
be some deaths; there are going to be some people being born. 
That's the life cycle that needs to continue, but when people 
tell me that you've got to find a way to control it, or we're 
going to control your growth in your community, that I have a 
problem with.
    Then, on top of that, if you heard Mr. Cohen say that they 
are going to spend billions of dollars, I'm happy, but the 
problem is this: What they're holding me is that I'm being 
punished for what others did, and I had no control of what 
corporate sector does, but because of what happened, they say, 
well, we don't want that, so we don't want you to do that. You 
know, if they had done what they should have been doing, you 
know what, we would have a better place to live in south 
Florida. This is what gets my goat--as I talked about earlier, 
having two standards of the law.
    Thank you.
    Mr. Lehtinen. I think Mr. Cohen invited us to comment, and 
it is true that Mr. Cohen and I have--and with Mr. Cypress' 
involvement, of course--reached some agreements on issues that 
a year or two ago, in litigation and other things, were 
outstanding and were a problem--actual points of the Interior, 
some of them, not Mr. Cohen, but others saying the tribe can be 
removed upon expiration; the rights are not in perpetuity. 
There has been substantial progress, and Mr. Cohen has played a 
positive role in getting the progress on those matters.
    It does mean--and Ed knows this--that I have compared it 
sometimes to, if you're going to be shot five times and you 
make progress to where you're shot only once, if being shot 
once kills you, then the benefit of the four other shots not 
being there doesn't help. But if you're going to go from death 
to life, then reducing it, as we have, on maybe four of five, 
you know, 80 percent of the problems, is definitely progress. 
We've just got to get over some of the remaining central 
issues, and in that sense we certainly are optimistic.
    Mr. Faleomavaega. Well, I just want to say that the 
chairman and I are very concerned about this, and if it means 
that maybe some way or somehow that we might resolve this issue 
by way of legislation, we're hopeful that you gentleman can 
resolve this even outside of litigation, but if not, we will 
address this issue again before another committee hearing, and 
maybe even have to introduce appropriate legislation to cure 
it.
    But with that in mind, I want to thank you, gentlemen, for 
being here this morning. I do look forward to visiting the 
Miccosukee tribal reservation in the near future, if I can. I 
have a bunch of cousins that live in Orlando, and Disney World 
maybe might not be too far from where you are.
    So, gentlemen, thank you for coming this morning.
    The hearing is adjourned.
    [Whereupon, at 12 noon, the Subcommittee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Edward B. Cohen, Deputy Solicitor, Department of the 
                                Interior

    Mr. Chairman and members of the Subcommittee, thank you for 
this opportunity to discuss the Department of the Interior's 
discussions with the Miccosukee Tribe regarding their special 
use permit. The Department's focus in these negotiations is to 
protect the natural resources of the Everglades National Park 
and to provide more autonomy to the Miccosukee Tribe of Indians 
of Florida in the use and occupancy of the special use permit 
lands within the Park.
    In 1934, Congress authorized Everglades National Park to 
preserve intact a unique ecosystem found nowhere else in the 
world. The Park preserves a vast wetland of global significance 
and is the remaining finest example of South Florida's 
subtropical ecology. It includes sawgrass prairies, cypress 
swamps, tropical hardwood hammocks, mangrove forests and other 
fragile environments such as Florida Bay.
    In recent years, the Park has been at the center of a 
complex and massive Federal and state effort to restore and 
preserve the South Florida ecosystem. This effort is 
spearheaded by a Federal, state, tribal and local task force. 
Among the objectives of that task force are: (1) managing 
hydrological conditions in undeveloped and restorable lands to 
maximize the historic water regimes and natural processes; (2) 
ensuring that future development is compatible with the goals 
of ecosystem restoration and long-term preservation; and (3) 
ensuring that development does not preclude restoration 
efforts. The Miccosukee and Seminole Tribes of Florida have 
actively supported these goals and participated in the current 
restoration effort.
    The Miccosukee Tribe occupies an area within the Park 
pursuant to the terms of a 50-year special use permit issued to 
the Tribe in 1964 by the Secretary of the Interior in 
accordance with the Park's authority under the various laws 
governing the administration of the Park. The special use 
permit was issued ``for the purpose of (providing) 
administrative and educational facilities and to provide places 
for the Miccosukee Indians to live, make and sell handicraft.'' 
It allows the Tribe to occupy approximately 333 acres in a 
linear strip five miles long and 500 feet wide within the 
northern boundary of the Park. The special use permit expressly 
requires National Park Service approval for the Miccosukees to 
construct buildings and structures or to otherwise dredge or 
fill on the area in a manner that will not affect the water 
quality or interfere with the free flow of water through or 
over Parklands. In interpreting this general guidance, the Park 
must balance development in the Miccosukee permit area with the 
protection and perpetuation of Park resources.
    Today, about 134 homes and an 18-acre tribal government 
complex sit in Everglades National Park. That complex includes 
a tribal headquarters, schools, health clinic, police station, 
court house, and several other structures. This modern-day 
community is located immediately downstream of structures that 
deliver the Park's water from the north. Enough clean water 
delivered at the right time and right place will save the 
Everglades. Realization of this objective has become a multi-
billion dollar effort. It is for this reason that the Park has 
sought to carefully evaluate the scope, scale and location of 
the Miccosukee presence. The most recent issue--the Tribe's 
desire to construct 65 new homes after completing 51 new homes 
in 1993--led to a significant deterioration in relations 
between the National Park Service and the Tribe. The Tribe sued 
the Park in 1994 arguing that the Park should immediately 
permit the construction of these homes. That suit is still 
unresolved. The Park authorized 95 new home sites, although not 
in the configuration that the Tribe had requested. The Park 
also agreed that construction could begin on 30 houses last 
fall. The Tribe maintains that building in the alternative 
configuration would require construction of new and expensive 
infrastructure. Nevertheless, construction on the initial 30 
homes for which there is agreement is underway.
    The special use permit calls for a large amount of Park 
oversight. The Tribe views this as an intrusion on their 
sovereign authorities, creating an inherent tension between the 
Park and the Tribe. For the Park's part, it simply seeks to 
carry out obligations under the permit in order to protect Park 
resources.
    The National Park Service proposes the replacement of the 
special use permit with a new legal framework which respects 
Tribal sovereignty, acknowledges the Tribe's desire to live in 
the Park in perpetuity, and which places specific obligations 
on the Tribe to assure that their presence is not inconsistent 
with our efforts to protect and restore the Everglades and 
Everglades National Park. We have developed the outline of a 
legislative proposal incorporating that framework and have 
transmitted it to the Tribe for review and input.
    Implementing a solution involves solving a host of natural, 
cultural and visitor use issues. Among them, as examples, are 
that the Tribe would need to prevent and abate any degradation 
of the quality of surface water which enters the contiguous 
Tribal land and any surface or ground water that is released 
directly or indirectly into the Park from these lands. Also, 
flow ways would need to be maintained for the unimpeded flow of 
water with no construction or fill in those areas. Attention 
also needs to be paid to the preservation of native plant 
communities and the prevention of the introduction or 
maintenance of exotic plants. Developmental actions should not 
interfere with the preservation of stable wildlife populations 
and native species diversity while maintaining adequate 
wildlife migration routes.
    We approach these discussions with the Tribe with high 
hopes and the view that the Department and the Tribe are 
partners in restoring the ecological health of the Everglades. 
The Tribe and the Park will always be neighbor. Both recognize 
that development in this particularly sensitive area may 
generate impacts to the Park.
    Downstream effects of development occur regardless of land 
ownership. Only by working together with common goals can we 
jointly protect the fragile ecosystem of the Everglades.
    The Tribe has had the Department's draft of a legislative 
proposal for several weeks and their initial informal reactions 
have been promising. We are committed to reaching a solution 
and stand ready for further discussions.
    This concludes my prepared remarks. I will be pleased to 
respond to any questions you may have.
                                ------                                

 Statement of Billy Cypress, Chairman, Miccosukee Tribe of Indians of 
                                Florida
    My name is Billy Cypress. I've been the elected Chairman of the 
Miccosukee Tribe of Indians of Florida since 1986 and an elected 
Councilman since 1973.
    The Miccosukee Tribe, with a 50 percent blood membership 
requirement (highest in Indian Country), is determined to preserve its 
culture, its identity, its heritage, and its way of life. The keys to 
achieving these goals are self-determination and strong tribal self-
government within its own jurisdiction, the right to govern its people 
under traditional laws and traditional culture. These are oft-stated 
goals of Congressional Indian policy as well.
    For centuries, the European arrivals and then the U.S. Government 
were opponents in that struggle. Even now, in the era of supposedly 
more enlightened Indian policies and while some Federal agencies work 
well with us to achieve these goals (such as the Corps of Engineers), 
the National Park Service works as an agent of our destruction.
    Our Tribe's experiences form a pattern. First, the government 
pushes us to land nobody wants. Later, the government decides that the 
land has some value after all, so they push us to other land nobody 
wants. Then, the cycle repeats itself.
    After several of these cycles in the nineteenth century, the 
twentieth century saw the Monroe Reservation of 100,000 acres set aside 
in the southern Everglades ``in perpetuity'' (the state law said). 
Then, within 20 years the Monroe Reservation was taken away to make 
Everglades National Park. We were promised then that we could stay in 
the Park. Congress was told then by the Park Enabling Act's sponsors 
that the Indians would remain in the Park. And the so-called 
``permits'' we've had since 1962 say we can build permanent structures 
in an area on the north edge of the Park.
    But in the 1990's, the Park Service said that when the permit 
``expires,'' they can make us move again. Our tribal members have been 
told by Park rangers ``don't plant trees that take a long time to grow, 
because you're not going to stay here.'' Our tribal officials have been 
told by high level Interior officials, in conferences with our lawyers, 
that ``we can move you out when the permit expires.''
    Now, as you've probably guessed, we don't accept that view. We're 
not going to move and I don't think the government will really make us 
move. After several rounds of recent lawsuits the Interior Department 
apparently now says we won't have to move. But what will be said 
tomorrow?
    We have the good fortune to be able to use the U.S. government's 
own expert witnesses to support us. This includes their water quality 
experts (retained on Everglades water issues), their cultural 
anthropologist (hired on traditional Miccosukee issues), and their 
former Bureau of Indian Affairs (BIA) Indian agent (who arranged for 
the tribal land base in the so-called ``permit'' area in 1962). So I'm 
not surprised that Interior has backed off a little bit.
    So we seem to be able to head off some of the more outrageous 
threats of the government when they occur, but lawsuits are cumbersome 
and unwieldy. And as we speak today, we still can't build the houses we 
need.
    We can't build--
        <bullet> even though we can finally afford it financially
        <bullet> even though we comply with all environmental 
        protection laws
        <bullet> even though the government's own water quality expert 
        says we pose no pollution danger
        <bullet> even though the government's own permitting agency 
        under the Clean Water Act (the Corps of Engineers) says there's 
        no environmental harm and has issued the section 404 permit
        <bullet> even though the government's own retained cultural 
        anthropologist says that to block tribal housing amounts to 
        ``cultural genocide.''
    Instead of ``cultural genocide,'' we want to protect our way of 
life and our culture with strong self-government and traditional 
values. This is consistent with the Park's purposes and long standing 
Congressional policy to promote tribal self-determination and tribal 
traditions.
    The Tribe has members living in trailers who need houses; extended 
families living in overcrowded houses of relatives; and members living 
out of the community who long to live in the Miccosukee community.
    Starting in 1992, the Park Service first said it needed ``time'' to 
review the Tribe's proposed plan for 65 houses along the existing road 
within the permit area (the permit gives the Park 30 days for the 
review). But after 2 years and frequent reminders without any action, 
we finally skipped the Park Service and applied directly to the Corps 
of Engineers for the proper permits.
    Then the Park said the Tribe had no land rights, and told the Corps 
of Engineers that the Tribe couldn't apply for section 404 dredge and 
fill permits because the Tribe did not have a legally sufficient 
interest in the land on which it lived. The Corps had always accepted 
permit applications from the Tribe and issued permits in the Tribe's 
name, but the Corps suspended review at the Park's request. When the 
Corps observed our evidence of bad faith by the Park Service, the Corps 
decided to go forward despite Park objections.
    After that, the Park Service said there could be a pollution 
problem, but the government's own water quality expert testified that 
Miccosukee housing creates and will create no water quality or 
pollution problem. So the Corps issued the section 404 permit under the 
Clean Water Act, finding no environmental harm from the proposed 65 new 
houses.
    Then the Park said the Tribe can't build even with a Corps permit, 
without Park permission. The Park claims that the 30 day right of 
review in the permit is an absolute veto.
    Thereafter, under court order to do a review of the Tribe's 
request, the Park said the Tribe could have 65 houses, but they had to 
be in two rows, so many tribal members have a house very close behind 
in their back yard. This takes new interior roads and more dredge and 
fill material than building along the already existing road, but the 
Indians are more ``out of sight.''
    We're not asking for much. Just leave us alone and we'll leave you 
alone. We'll protect the environment, protect water quality, assist in 
Everglades restoration. We'll accept the legal, enforceable obligation 
to protect the environment and do no damage to the Park or other lands 
outside our area. And we've agreed to reasonable height restriction, no 
commercial gaming, and no commercial aviation to protect the character 
of the area.
    Sometimes I think that this may be the problem. We're willing to 
guarantee that we won't pollute and that we won't have an adverse 
impact on the Everglades or Everglades restoration. I think non-Indians 
worries that if the Indians can accept and follow such laws, then the 
non-Indian man might have to accept and follow such laws too.
    Of course, non-Indian governments have a lot of those laws on the 
books, but they sure have a hard time enforcing them. Governments say a 
lot of things, but talk against pollution doesn't stop the pollution.
    We know, because we're the only people who live in the Everglades. 
We're the ones who get non-Indian pollution on our land and in our 
water.
    We do know, for sure, that if we agree to specific anti-pollution 
provisions (as we are willing to do), then those laws certainly will be 
enforced against us. Non-Indian law may not get enforced against non-
Indians, but it always gets enforced against the Indians.
    But we will accept these environmental laws, including enforcement, 
because we want to save the Everglades. The Everglades is our mother, 
and she is dying. We're not the destroyers; we're not killing her. 
We're trying to save her.
    In court, we're arguing for stronger environmental positions than 
the Federal Government takes and we're trying to enforce the Clean 
Water Act against the governments that ignore the law. Up here in 
Congress, we're asking for tougher laws against Everglades pollution 
sources. In Indian Country, we're adopting scientifically-based water 
quality standards that the State of Florida shrinks from due to special 
interest pressure.
    Everyone honors Marjory Stoneman Douglas, author of River of Grass 
and proponent of Everglades preservation. Ms. Douglas said, ``The 
Indians before everyone else knew that the Everglades were being 
destroyed.''
    What can I say to my tribal members when they ask--
        <bullet> We can finally afford it--Why can't we build?
        <bullet> We follow environmental laws--why can't we build?
        <bullet> They built employee housing, tourist hotel, restaurant 
        in Flamingo in the Park--why can't we build?
        <bullet> They built the road, put in electricity--why can't we 
        build?
        <bullet> They built Shark Valley Tower a couple of miles away--
        why can't we build?
        <bullet> They signed a permit saying we can build--why can't we 
        build?
        <bullet> There's one million five hundred thousand acres in the 
        Park, one hundred thousand acres were ours--why can't we build 
        on three hundred or a thousand?
        <bullet> Why won't they leave us alone?
    The only answer we understand so far is, ``There's law for Indians 
and there's law for non-Indians; it may look the same but it doesn't 
work the same way.'' It controls and gets enforced against Indians, but 
it doesn't control or get enforced against non-Indians or their 
government. We can see, for example, that the part of the permit that 
says that we need Park review is enforced against us. So if the Park 
refuses to do anything, we get nothing. But the part of the permit that 
says the review must be done within 60 days is just disregarded, not 
enforced. And the part of the permit that says we have a right to 
build--well, that doesn't control the non-Indian.
    So non-Indian law is easy to understand, as far as we can see. It 
just means, ``the non-Indian wins.''
    What I hope this Subcommittee will do, what I hope this Congress 
will do, is show us Miccosukee Indians that we are wrong about ``non-
Indian law.'' We hope you'll show us that Miccosukee Indians can be 
guaranteed rights of self-government on their small lands, without 
paternalistic and misguided Park Service employees telling them what's 
good for them, as long as Miccosukees protect the environment and don't 
harm anyone or any property outside our lands. We hope you'll show us 
that the high ideals to which this great country aspires have been 
achieved to the extent that there is no longer, for the Miccosukees at 
least, selective enforcement of the law. Miccosukees hope to see just 
one law--yours and mine--and that we're all equal under it together.
    Thank you.
                                 ______
                                 

  Statement of Dexter Lehtinen, General Counsel, Miccosukee Tribe of 
                           Indians of Florida

    As a non-Indian, I cannot speak from an Indian heart; I 
leave that task to Chairman Cypress. But as General Counsel for 
the Miccosukee Tribe, I can describe the legal background on 
the Tribe's position on residency within the Park boundaries 
and I can describe also what a lifelong resident of South 
Florida has seen through a non-Indians eyes.
    First, let me discuss the legal background. The term 
``Seminole'' has been applied improperly to all Florida 
Indians, and was misleadingly used in both state and Federal 
legislation until around the 1960's or so, to include the 
distinct Miccosukee Indians. The advent of serious 
consideration to establishing a national park in the Florida 
Everglades in the 1920's finds the Miccosukees living 
throughout the southern Everglades, including but not limited 
to the 100,000 acre state Monroe Indian Reservation in what is 
now Everglades National Park. The opening of Tamiami Trail (the 
paved road across the Everglades linking Tampa to Miami, hence 
the name ``Ta-Miami'') in 1927 and the authorization of 
Everglades National Park by Congress in 1934 would change the 
lives of Miccosukees and their culture forever.
    The Monroe Reservation was abolished in 1935 and a new 
Reservation much further north was substituted, where no 
Miccosukee then lived and where still to this day none live. As 
Chairman Cypress has said many times, from the Indian viewpoint 
it is simply taking good land and trying to push the Indians to 
land nobody wants. From a legal viewpoint, its taking land 
without permission.
    Seeking to avoid a replay of the infamous Indian removal 
policies of the 19th century, and knowing the Miccosukees would 
not move to the new Reservation anyway without force, the 
Roosevelt Administration visited the Miccosukees on the Trail, 
promising that they would be allowed to remain in the Park. 
Reflecting this policy, Everglades National Park Enabling Act 
of 1934 states that ``Nothing in . . . this title shall be 
construed to lessen any existing rights of the Seminole 
[Miccosukee] Indians which are not in conflict with the 
purposes for which Everglades National Park is created.''
    Likewise, the floor discussion in Congress reflects the 
same policy:
        ``By passing this bill we are placing them [Indians] in a home, 
        and in a position to live there where they should live. We 
        believe they should be in there. . . . They will be permitted 
        to remain relatively undisturbed in their own country and in 
        their own homes.''
    This seemed sensible not only from the viewpoint of protecting the 
rights of the Indians, but because the 1930 Report of the Secretary of 
the Interior on the desirability of a national park cited several 
factors, including ``the present . . . Indian, are sufficient to give 
the area a national interest.'' A 1935 press release of the Department 
of the Interior states that ``it is within the power of the Government 
and the State of Florida to salvage and re-create the Everglades, with 
the Indians as part of them, through meeting to a generous extent the 
Indians' own wishes.''
    After the dedication of the Park in 1947, under governmental 
pressure to leave the central areas of the Park, many Miccosukees moved 
their camps near Tamiami Trail near the northern boundary of the Park. 
Throughout the 1950's the Tribe sought a land base in its homelands and 
an organizational structure to defend its right to self-government. As 
a result, in 1962 the Tribe reorganized under the Indian Reorganization 
Act and the United States allocated an area within the Park at its 
northern boundary for tribal development.
    The area was called the ``Tamiami Reservation'' and was 500 feet 
into the Park along a 5-mile road frontage at the northern edge of the 
Park. It was defined in an agreement between the Bureau of Indian 
Affairs (later the Tribe was substituted) and the Park Service, a so-
called ``permit.'' The Tribe had traditional use and access in the 
Park, but this area was to be the Tribe's land, for schools, police 
station, health clinic, administration, and houses. The paved road (the 
Park's northern boundary) was already there with utilities.
    The BIA representative at the time, Reginald Miller, has testified 
under oath that the area was for tribal self-government, permanent (no 
expiration date on the first permit), and development of fixed 
structures. He said that Interior and BIA ``worked with the idea of 
finding a land base in the park'' in order to ``build houses! have a 
school, a place for some medical attention, community facility, 
business enterprise, and such things as a normal community might 
want.'' Miller says it was ``identified as the Tamiami Indian 
Reservation,'' was in the ``Tribe's traditional homeland,'' and was ``a 
permanent site.'' Miller summarized:
        ``. . . [T]he government agencies assumed . . . that this was 
        the Miccosukee homeland, and that they belonged there, that 
        they should be there.''
    The Park Service's own maps, distributed to the public in tourist 
brochures, labelled the area ``Miccosukee Indian Reservation,'' until 
1992 (when they changed the designation to ``cultural center''; while 
on recent Park tourist guides all reference to the Miccosukee area is 
dropped). The Park Service (and Federal courts) have recognized the 
permit area as ``Indian country.''
    A 1962 BIA transmittal letter, explaining the permit, cited the 
1934 statute and concluded:
        The implication was that Congress wanted to give every 
        consideration to the Seminoles [Miccosukees]. This permit 
        follows the intent of Congress.
    The BIA built a permanent administration building and started 
facilities such as a clinic, while Dade County helped with a school. 
Over the ensuing years, the Tribe expanded its facilities in the 
Tamiami Reservation (``permit'' area); by 1992 there were a gymnasium, 
two schools, fire department, police department, senior center, 
extensive offices, tribal court, health clinic and wellness center, and 
approximately 100 houses, as well as a tourist attraction Indian 
village. Outside the Park (but within 500 feet or so) on new Tamiami 
Trail (which had been built just north of the original Tamiami Trail) 
the Tribe had a restaurant, gas station, and grocery store, and private 
(non-tribal) restaurant and motel had been built on private land on new 
Tamiami Trail in the same area as well.
    The Tribe complied with all laws, including environmental 
protection laws such as the Clean Water Act, applying for and receiving 
section 404 dredge and fill permits in its own name from the Corps of 
Engineers.
    But tension developed in the l990's as the Park Service 
increasingly believed that the Tribe's mere presence was inconsistent 
with the purposes of the park. In 1994, after two years of refusing to 
review the Tribe's proposal for 65 houses along the road in the permit 
area, the Tribe went directly to the Corps of Engineers for a Clean 
Water Act section 404 permit. The Park Service told the Corps that the 
Tribe had no land interest to qualify it to even apply for a permit. 
But after litigation exposed the weaknesses of the Park position the 
Corps went ahead with its review and issued the permit, finding no 
adverse environmental impact.
    Nonetheless, to this day the Park still says ``no'' to the tribal 
housing plan, asserting that the right of review in the permit gives 
them complete discretion to say no for any reason; notwithstanding the 
clear statements in the permit that the Tribe can build and develop the 
area for tribal purposes and notwithstanding the 60-day limit on the 
Park's review power.
    So the Miccosukee Tribe wants its rights ``reaffirmed'' or 
``clarified.'' as we believe the Congress intended in 1934 in passing 
the Park Enabling Act and the government intended in 1962 in signing 
the permit. In the permit area or Tamiami Reservation, the key elements 
must encompass:
        <bullet> the right to govern themselves as they see fit (self 
        government) as though it were a reservation
        <bullet> the right to develop the area as long as activities do 
        no harm to the outside environment or adjoining landholders 
        (including the Park)
        <bullet> oversight by normal enforcement mechanisms (such as 
        Corps of Engineers for Clean Water Act permits, Attorney 
        General lawsuits for violations, etc.) but not special 
        enforcement by Park Service or Park ``veto''
        <bullet> perpetual duration of these rights (no expiration)
    The Miccosukee Tribe will guarantee (and will accept mandates of 
these guarantees by law) adherence to strict anti-pollution standards, 
and height, gaming, and aviation restrictions. Even with limited time, 
let me re-emphasize this point--the Tribe will accept, in law and in 
writing:
        <bullet> no harm to Everglades restoration and no adverse 
        environmental impact outside the tribal area (including special 
        directions to the Corps of Engineers to ensure in all 404 
        dredge and fill permits that there is no adverse impact on 
        water quality of hydroperiod, on Everglades restoration, or to 
        the Park's environment)
        <bullet> no commercial aviation and no commercial gaming
        <bullet> height restrictions equal to those imposed upon itself 
        by the Park Service within the Park itself.
        <bullet> jurisdiction in Federal court for the Attorney General 
        to bring any action against the Tribe to enforce these 
        provisions.
    What does all this means in human terms? What do I see as a non-
Indian born in south Florida with 8 years service in the Florida 
Legislature and 4 years as United States Attorney?
    I see a government that can't or won't control pollution from 
650,000 houses and commercial businesses, so they want to stop 65 
houses that their own experts say won't pollute. That is, if you can't 
or won't solve the real problems connected to big guys, then at least 
look like you're doing something by solving made-up connected to little 
guys.
    I see a government that allows hotels, paved roads, employee 
housing, large science research buildings within the Park, taking up 
far more than 333 acres, but it wants to stop Indian buildings and 
housing on 333 acres. That is, the Park actually testified that it 
might not be permitted by law to allow Indian buildings because the 
National Park Service Organic Act requires that parks be kept in their 
natural state, even as they build tourist hotels, restaurants and 
housing for their own employees.
    I see the only people who live in the Everglades (Miccosukee 
Indians) having their homelands destroyed by non-Indian pollution and 
government neglect, but their own non-polluting structures are blocked 
by the government. That is, those who don't pollute are held up as a 
straw man by an embarrassed government to cover those with who do 
pollute.
    Interestingly enough, I see a Tribe asking for no more than what 
it, and most non-Indians, thought the Tribe already had. After all--
        <bullet> The 1934 Congressional Record, referring to the 
        Miccosukees in the newly-authorized Park, said ``they will be 
        permitted to remain relatively undisturbed in their own country 
        in their own homes.''
        <bullet> The BIA representative who established the ``permit'' 
        says, ``This land was set aside for the Miccosukee Indians for 
        all the things we stated, homes and things like that . . .'' as 
        a ``permanent site'' in the ``Miccosukee's homeland.''
        <bullet> Both the Department of the Interior and the Federal 
        courts have classified the area officially as ``Indian 
        Country.''
        <bullet> The Florida Department of Transportation has sign on 
        Tamiami Trail that says ``Entering Miccosukee Indian 
        Reservation.''
        <bullet> The Park's own tourist map said ``Miccosukee Indian 
        Reservation'' until 1992; and state maps today (the Atlas of 
        Atlas, Florida Gazetteer, and Rand McNally Florida Road Map all 
        say ``Miccosukee Indian Reservation.''
    Most importantly, I see a group of Indians who want nothing more 
that what you and I want--
        <bullet> Freedom from governmental interference, from 
        bureaucrats telling us what's best for us, in their opinion.
        <bullet> Freedom to develop their own community, as long as 
        they follow the laws that apply equally to all as us, including 
        environmental protection and respect for adjoining landowners.
        <bullet> Freedom to control their own lives on their own land, 
        at no harm to others.
        <bullet> In short, simply freedom under law. Thank you.
                                 ______
                                 
Statement of Hon. Alcee L. Hastings, a Representative in Congress from 
                          the State of Florida
    Mr. Chairman, I appreciate the opportunity to submit this testimony 
to the Committee on behalf of H.R. 190, a bill which I have sponsored 
both in this Congress and the previous one. Mr. Chairman, and members 
of the Committee, let me be perfectly clear: this is a very important 
bill which will carry out the longstanding intent of Congress in 
preserving and protecting the rights of the Miccosukee Tribe of Indians 
of Florida. This bill was introduced in a truly bipartisan fashion, 
with my Florida colleagues Congresswoman Carrie Meek, and Congressmen 
Lincoln Diaz-Balart and Dan Miller joining me as original cosponsors.
    This legislation allows for the good people of the Miccosukee Tribe 
to live in perpetuity in the so-called permit area of Everglades 
National Park. The Miccosukees have lived and worked for literally 
hundreds of years in this area. The rights of the Miccosukees are 
recognized by the Everglades National Park Enabling Act of 1934 and 
their special use permit.
    In 1934, the Everglades National Park Enabling Act specifically 
provided that rights of the Indians were protected. Subsequently, in 
1962, and 1973, the tribe was guaranteed that they could build homes, 
schools, clinics, and other tribal buildings in the 300-plus acres 
identified in their special use permit.
    Unfortunately, Mr. Chairman, the Park Service now seeks to restrict 
Miccosukee activities on their own land--even after the tribe has 
complied with all applicable laws. The intent of the Congress in 1934 
was to guarantee the Indians the freedom to live, work, and govern 
themselves as they wish in this area, not to be governed by the 
National Park Service. This bill will allow for Miccosukee self-
government to continue and prosper.
    These Indians seek nothing more than what we promised them when we 
passed the park bill in 1934, nothing more than was said on the floor 
of this House, nothing more than the Department of the Interior 
confirmed in the special use permit.
    In 196O, Justice Hugo Black wrote, ``Great nations, like great men, 
should keep their promise.'' With this bill, we keep our promise to 
these native Americans, to these fellow citizens of the United States.
    They deserve nothing less.
    Thank you, Mr. Chairman.
                                 ______
                                 
  Statement of Hon. Lincoln Diaz-Balart, a Representative in Congress 
                       from the State of Florida
Dear Mr. Chairman:
    As a South Florida Representative,I am concerned that the right of 
the Miccosukee Tribe of Indians of Florida to live in their native 
homelands is protected and properly understood, as previously 
recognized by Congress and the Department of the Interior.
    In this respect, I support H.R. 190, a bill to amend the Act 
entitled ``An Act to provide for the establishment of the Everglades 
National Park in the State of Florida and for other purposes,'' 
approved May 30, 1934, to clarify certain rights of the Miccosukee 
Tribe of Indians of Florida. This language clarifies 16 USC 410(b), 
part of the Everglades National Park Enabling Act of 1934, to protect 
the rights of the Miccosukees (as Seminoles who lived in the Park). I 
believe that the language is reasonable and well-founded in that it 
fulfills original Congressional intent and codifies rights already 
recognized by the Department of the Interior in previously-issued 
``special use permits.'' As was said on the floor of the House by 
Representative DeRouen in explaining the Park Enabling Act on May 24, 
1934, the Congress seeks simply to ensure that ``. . . we are placing 
them in a home, and in a position to live, there where they should 
live,'' and that ``. . . they will be permitted to live . . . in their 
own country and in their own homes.''
    I believe that the most effective way to clarify these rights would 
be to support H.R. 190, introduced by my colleague Mr. Hastings. I 
appreciate your consideration of this legislation in the Subcommittee 
on National Parks and Public Lands.

</pre></body></html>
